<html>
<title> - RESOURCING THE PIVOT TO ASIA: EAST ASIA AND PACIFIC FY 2015 BUDGET PRIORITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  RESOURCING THE PIVOT TO ASIA: EAST ASIA AND PACIFIC FY 2015 BUDGET 
                               PRIORITIES

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2014

                               __________

                           Serial No. 113-154

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

 88-016 PDF                    WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director

                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
                                     WILLIAM KEATING, Massachusetts










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Daniel R. Russel, Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State.......     6
Ms. Denise Rollins, Acting Assistant Administrator, Bureau for 
  Asia, U.S. Agency for International Development................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Daniel R. Russel: Prepared statement...............     8
Ms. Denise Rollins: Prepared statement...........................    17

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    42
Written responses from the Honorable Daniel R. Russel to 
  questions submitted for the record by:
  The Honorable Dana Rohrabacher, a Representative in Congress 
    from the State of California.................................    44
  The Honorable Matt Salmon, a Representative in Congress from 
    the State of Arizona, and chairman, Subcommittee on the 
    Western Hemisphere...........................................    45
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................    47

 
  RESOURCING THE PIVOT TO ASIA: EAST ASIA AND PACIFIC FY 2015 BUDGET 
                               PRIORITIES

                              ----------                              


                         TUESDAY, MAY 20, 2014

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon. The subcommittee will come to 
order. This is the Subcommittee on Asia and the Pacific of the 
Foreign Affairs Committee. I am Steve Chabot, the chairman. I 
want to thank the gentleman from California, Mr. Bera, for 
serving as today's ranking member and I also thank our 
distinguished witnesses, Assistant Secretary Daniel Russel and 
Acting Assistant Administrator Denise Rollins, for being here 
this afternoon.
    This hearing was called to assess the Fiscal Year 2015 
State Department and U.S. Agency for International Development 
budget request for the East Asia and Pacific region. This 
region is receiving the single largest proposed spending 
increase--at 9.4 percent--compared to any other regional or 
functional bureau. Consequently, it is critical that we examine 
the administration's priorities in the Asia-Pacific and hear 
how this foreign aid budget will achieve the administration's 
key regional goals. Of particular interest are those nations 
receiving a significant increase in foreign assistance--notably 
Burma, Indonesia and the Philippines--and those countries where 
human rights abuses are thriving and political turmoil is 
surging--Cambodia, Thailand and, again, Burma, to name a few.
    The United States has always recognized the Asia-Pacific 
region's political, economic, and security significance. Our 
long-term presence there is built on promoting stability, 
fostering respect for international law, advancing respect for 
human rights, and maintaining freedom of navigation and 
unhindered lawful commerce in the maritime regions. These 
objectives are fundamentally hinged on the United States' 
alliances with Japan, South Korea, Australia, Thailand, and the 
Philippines; our resilient relationships with Taiwan and 
Singapore; and our evolving relationships with Vietnam and 
Indonesia.
    At the advent of the administration's foreign policy 
rebalance toward the Asia-Pacific region was the recognition 
that this part of the world is the future centerpiece of global 
commerce and security strategy. Many here in Congress supported 
this effort, and our allies and partners in the region 
championed it. However, as we have seen over the past year, in 
particular, America's presence in the region is being 
challenged and growing tensions are threatening to undermine 
the administration's ability to achieve its strategic goals.
    Other than the more enduring challenges in Asia such as 
nuclear proliferation, human trafficking, terrorism, widespread 
corruption, extreme poverty, and natural disasters, we are now 
faced with progressively more complex security threats rattling 
the region's stability. North Korea's crimes against humanity 
and nuclear ambitions continue unabated. A political crisis has 
pushed our ally, Thailand, to the brink of disaster. Reports 
indicate Burma shows signs of genocide against the Rohingya 
Muslim population. And a promulgation of clashes between China 
and its neighbors over sovereignty claims in the East and South 
China Seas have turned the maritime thoroughfares into 
dangerous hot zones of conflict.
    Mr. Russel, the last time we saw you we were discussing 
this last issue, and I can tell you from conversations since 
then that many folks in the region welcomed the more steadfast 
assurance that America will stay engaged. However, I do not 
think these maritime disputes will go away, nor do I feel China 
will stop challenging America's role there. So maintaining a 
high level of engagement and directing American resources 
toward the region to manage these tensions will not get any 
easier, in my opinion, especially with other crises around the 
world rearing their ugly heads. The foreign assistance budget 
we discuss today needs to support a coherent and cohesive 
strategic plan for the region. At the same time, our strategy 
itself needs to be judicious and discerning--we should not be 
funding projects just because we can.
    In Fiscal Year 2015, the administration is seeking an 
additional $69.6 million for the Asia-Pacific region. The total 
requested budget of $810.7 million will be directed toward 
pursuing five objectives, which I hope you will elaborate on 
this afternoon.
    More specifically, the administration is proposing 
providing Burma with an additional $26.6 million. The total, 
$88.5 million, is a 90-percent increase in aid compared to 
Fiscal Year 2012 assistance levels for Burma. This committee 
has long taken an active interest in Burma and, as I have noted 
previously, we welcome the tremendous progress seen in that 
country over the past 3 years--U.S. involvement has been key. 
But today that progress has plateaued and is deteriorating in 
some areas.
    I am concerned about the $250,000 in IMET assistance the 
administration plans to utilize to engage with the Burmese 
military. This military has not yet severed its ties with North 
Korea, has not halted its fighting in the ethnic areas, is 
complicit in abuses against the Rohingya and other ethnic 
minorities, and is preventing needed constitutional reforms. 
And despite these concerns, the administration has still not 
detailed a strategy for future engagement with the Burmese 
military, which is unacceptable. Allowing Aung San Suu Kyi to 
run in the 2015 election used to be a key benchmark, but now 
the fact that Burma can't manage chairing ASEAN and continue 
making reforms is enough for the administration to let this 
benchmark slide and be pushed down the road a few more years. 
Overall, I am disappointed by the administration's engagement 
approach with Burma, and I hope that our witnesses will touch 
on those areas of concern today.
    I am also troubled by the political impasse in Cambodia and 
the fact we are seeing very little return for the amount of aid 
provided there. The administration has been largely silent 
since last summer's election in Cambodia, and should be more 
vocal about pushing for an independent, internationally 
assisted investigation into the conduct of those elections. I 
also continue to be concerned about Hun Sen's brutal crackdown 
on protests and rampant land grabbing. In fact, over 2,000 
families have been affected by ``a renewed wave of violent land 
grabbing'' since the beginning of this year. It is evident that 
our democracy programming in that country has not made 
sufficient progress, so I would like to know how those programs 
are being reassessed.
    I also hope today's witnesses will touch on how the 
administration plans to deepen relations between our allies in 
East Asia and the signing of a new 10-year defense cooperation 
agreement with the Philippines. While I have other areas of 
concern, I will touch on those issues in my questions so we 
have time to recognize other members.
    I look forward to hearing from our distinguished witnesses 
this afternoon and I now yield to Mr. Bera, the acting ranking 
member of the subcommittee, for his opening remarks.
    Mr. Bera. Thank you, Chairman Chabot, and thank you for 
calling this hearing. Obviously, this is timely on the heels of 
the President's recent trip to Asia and outlining what our 
priorities are as well as the administration's priorities going 
into 2015.
    One area that I remain very deeply concerned about is 
China's unilateral and nationalistic-fueled decrees. 
Particularly, we are watching what is happening in the South 
China Sea where China had expanded into territorially disputed 
waters with Vietnam and within the last month we have watched 
these maritime tensions increase, particularly with China's 
establishment of a state-owned oil rig in waters claimed, 
again, by both China and Vietnam.
    The oil rig site also is being protected right now by a 
Chinese flotilla so I will be curious as to the 
administration's thoughts there, and there have been reports 
recently of Chinese vessels ramming into Vietnamese ships and 
water-shooting exchanges.
    In addition, China has to be held to norms--international 
norms where they are coming and territorial disputes are being 
negotiated through international means, not through aggressive 
unilateral actions as the ones we are seeing in the South China 
Sea.
    These actions are sparking anti-China protests in Vietnam 
where factories thought to be associated with China were 
burned, causing injuries and even death. And again, this is a 
time for us as the United States to stand with our allies, and 
as China enters the modern world it has to negotiate in more 
acceptable ways.
    And, again, I am very interested in hearing the witnesses' 
thoughts on how we might work with our allies to do that. In 
addition, you know, we are watching this expansion into the 
Yellow Sea--into the East China Sea with unilateral expansions 
of the ADIZs.
    Particularly of concern with some of our close allies--
Japan, Taiwan, and Korea--with these unilateral expansions 
again, you know, I am curious about the administration's 
priorities with regards to partnering with our allies there and 
sending a strong message that these unilateral expansions are 
not the way to go about territorial disputes but rather through 
more negotiated forms.
    As the chairman mentioned, I am also very pleased with the 
10-year defense agreement that was signed this past April with 
our close ally and friend, the Philippines. Enhancing security 
cooperation is a clear sign to our allies that the United 
States remains committed to our friends in the face of these 
external threats.
    I also want to congratulate USAID on its invaluable role, 
closely coordinating with the Philippines Government in 
response to typhoon Haiyan. This was a great success story that 
demonstrates that investing in aid programs has dramatic and 
lifesaving results in post-disaster environments.
    And as mentioned previously, I look forward to the 
testimony of the witnesses. I look forward to continuing to 
work with Chairman Chabot as we solidify and strengthen our 
role with our allies in this pivot to Asia.
    And with that, I yield back.
    Mr. Chabot. Thank you very much for your opening statement. 
We will now yield 1 minute to other members who would like to 
make an opening statement. I will yield to Dana Rohrabacher of 
California, who is the chairman of the Europe, Eurasia, and 
Emerging Threats Subcommittee.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. 
Needless to say, this is a vital subject. If we are going to 
live at peace and prosperity in the United States we cannot 
lose focus of what is going on in China and in the Pacific.
    The Chinese ocean and territorial claims just being claims 
should have been a tip-off that there was problems ahead. Well, 
now we see China beginning to reinforce those claims and which 
is leading to confrontations with Japan, Taiwan, the 
Philippines, even Vietnam, and let us note that China also has 
land claims--huge land claims against India.
    This does not spell very good tidings--does not work out a 
very good tiding for the United States and the rest of the 
world who would like to live in peace and prosperity and 
stability not only in that part of the world but the entire 
planet.
    China and radical Islam now represent the major threat to 
peace, stability and prosperity for the entire world and, 
unfortunately, in this effort we have seen China arming the 
mullahs in Iran. We have sent them give--provide nuclear 
weapons technology to North Korea and Pakistan.
    These things suggest that the pivot to the Pacific should 
have happened a long time ago and the worst news of all is we 
may have, with a very not well thought out policy toward 
Ukraine, driven Russia into the arms of a dictatorial still-
Communist China, which would be a catastrophe for the rest of 
the world in trying to obtain the peace and stability that we 
seek.
    Thank you very much. I am looking forward to hearing the 
witnesses.
    Mr. Chabot. Thank you very much, and the gentlelady from 
Hawaii, Ms. Gabbard, is now recognized for the purpose of 
making an opening statement.
    Ms. Gabbard. Thank you very much, Mr. Chairman. Welcome to 
both of you here today.
    I had the chance just a few weeks ago to go on a 
congressional delegation led by the majority leader, Eric 
Cantor, to Japan, South Korea and China and it just so happened 
that we went on the eve of President Obama's visit and just 
want to highlight some of--I think one important takeaway that 
I got from that trip but from what I have seen, representing 
Hawaii and understanding a little bit about the Asia-Pacific 
region as a whole, is the importance of relationships and how 
nuanced our relationship is with each of these countries, both 
our allies and those who are emerging in many ways and how we 
have been able to avoid conflict for quite some time because of 
the investment in relationships and really proactive 
constructive engagement.
    So I look forward to hearing from you as you talk about how 
some of the foreign aid dollars that we are investing in the 
region and the people in the region can seek to strengthen both 
the security ties that we have but also how this best sets us 
up for stability, peace and really exploring the potential of 
economic opportunity in the region.
    And in order to do that, we have to understand the basics 
of these nuanced relationships that require a lot of 
sensitivity. So thanks so much for being here today.
    Mr. Chabot. Thank you very much.
    I will now introduce the panel we have this afternoon. Not 
a stranger to this committee, Daniel Russel is the Assistant 
Secretary of State for East Asian and Pacific Affairs and is a 
career member of the Senior Foreign Service. Prior to his 
appointment as Assistant Secretary, Mr. Russel served at the 
White House as Special Assistant to the President and National 
Security Staff. During his tenure there, he helped formulate 
President Obama's strategic rebalance to Asia. Before joining 
the National Security Staff, he served as Director of the 
Office of Japanese Affairs and had other various assignments in 
Japan, South Korea, the Netherlands and Cyprus. He has also 
served as Chief of Staff to Ambassador Thomas R. Pickering and 
Assistant to the Ambassador to Japan, former Senate Majority 
Leader Mike Mansfield. Mr. Russel was awarded the State 
Department's Una Chapman Cox Fellowship sabbatical and authored 
the book, ``America's Place in the World.'' Before joining the 
Foreign Service, he was manager for an international firm in 
New York City. Mr. Russel was educated at Sarah Lawrence 
College and University College, University of London, U.K. We 
welcome you here this afternoon.
    We also have Denise Rollins, who has been a member of the 
U.S. Senior Foreign Service and has more than 25 years of 
international experience. She has served as USAID's Acting 
Assistant Administrator for the Bureau for Asia since September 
2013. Prior to that, Ms. Rollins was Senior Deputy Assistant 
Administrator, where she was responsible for overseeing USAID's 
Asia portfolio. Prior to her appointment to the Asia Bureau, 
she was USAID's Mission Director in Bangladesh. She has 
additionally served as USAID's Deputy Mission Director in South 
Africa, where she oversaw development programs addressing 
health, education, local government, and private sector 
development. Before joining USAID, Ms. Rollins served as the 
Senior Program Officer at the African-American Institute and a 
legislative assistant for two Members of Congress. She is a 
native of Detroit, Michigan and we welcome you here, as well.
    I won't explain the 5-minute rules. I am sure you are 
familiar with our lighting system. You all get 5 minutes and we 
get 5 minutes up here. So without further ado, Mr. Russel, you 
have the floor for 5 minutes.

    STATEMENT OF THE HONORABLE DANIEL R. RUSSEL, ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Russel. Thank you very much, Mr. Chairman. Thanks to 
the members of the subcommittee and thank you for the 
opportunity to testify today about the President's 2005 budget 
request for East Asia and the Pacific.
    I appreciate very much your leadership and your strong 
support. I appreciate also the chance to testify alongside of 
my colleague, Denise Rollins, the USAID Acting Assistant 
Administrator.
    Our strategy toward the Asia-Pacific region is built on a 
simple premise. As a resident Pacific power and a trading 
nation, the Asia-Pacific is hugely consequential to the United 
States, to our security and to our economy and that importance 
will only grow.
    The rebalance strategy begun by President Obama in 2009 
focuses on strengthening our alliances, building up the 
regional architecture and engaging emerging powers. We have 
coordinated and strengthened our ability to take joint action 
with our treaty allies in the region--Japan, the Republic of 
Korea and the Philippines--all of which President Obama 
recently visited just last month, as well as with Australia and 
Thailand.
    Second, we are helping to build an architecture of regional 
institutions and agreements. We were the first nonmember to 
dedicate a permanent mission to ASEAN and President Obama 
participates annually in the East Asia Summit in U.S. ASEAN 
meetings and in AIPAC leaders meetings.
    We have upgraded our economic engagement, focusing on the 
Trans-Pacific Partnership, TPP, which is an ambitious high-
standard agreement that will create jobs and growth in the U.S. 
and in all member countries.
    Together, those elements form a regional architecture of 
shared rules of the road that foster mutual understanding and 
help countries to resolve all types of disputes peacefully.
    Third, we are engaging with emerging powers. We have 
regular high-level discussions with Indonesia, India and, of 
course, China on a wide range of bilateral and global issues. 
We have also deepened our engagement with existing and new 
partners like Singapore, New Zealand, Malaysia and Vietnam and 
we work with our partners both to form closer bilateral 
relationships but also to bring them closer to one another.
    For instance, through the Lower Mekong Initiative, LMI, we 
are helping Burma, Cambodia, Laos, Thailand and Vietnam jointly 
to manage a watershed that is crucial to the prosperity, health 
and food security of all their citizens. From the environmental 
goals of LMI to people-to-people engagement such as President 
Obama's Young Southeast Asia Leaders Initiative, our diplomacy 
and development work advances America's values.
    Allow me to highlight a few specific examples of how the 
President's 2015 budget supports our broader policy priorities. 
The Fiscal Year 2015 request for the EAP bureau is $1.2 billion 
including foreign assistance and diplomatic engagement funds, 
all together up 5 percent from fiscal 2013. These additional 
resources will help us achieve our security goals, strengthen 
our economy at home and advance American values.
    For instance, we are requesting $12.5 million of an 
increase for international military education and training, a 
47-percent increase over 2013 spread throughout the region. 
This program builds our influence with the next generation of 
military leaders.
    We are also requesting additional funds to build the 
maritime capacity of our allies and partners, for instance, by 
increasing foreign military financing to the Philippines by 57 
percent to $40 million.
    And as you noted, the request provides over $88 million, 
Mr. Chairman, a 43-percent increase to support Burma's 
democratic transition by strengthening institutions and 
addressing development challenges, and it supports disaster 
relief and recovery in the Philippines. To aid the ongoing 
rebuilding after super typhoon Haiyan, we are requesting an 
additional $20 million in mid to long-term development 
assistance. These are just a few of the ways our budget 
supports our interest in the region.
    Before I close, two quick points please. First, I would 
like to take a moment during Asian-American and Pacific 
Islander Heritage Month to acknowledge the invaluable 
contribution of those millions of Americans.
    Second, as you noted, Mr. Chairman, this hearing comes 
during a time of significant events in Asia. In the last few 
weeks, China's unilateral placement of an oil rig in disputed 
waters and the subsequent violence in Vietnam have stoked 
tensions between these neighbors.
    Yesterday the Department of Justice indicted members of 
China's--of the Chinese military for cyber-enabled economic 
espionage and theft, and overnight the Thai military declared 
martial law.
    So there is much to discuss. After my colleague has made 
her statement, I will be happy to take your questions.
    [The prepared statement of Mr. Russel follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Chabot. Thank you very much for your testimony this 
afternoon.
    Ms. Rollins, you are recognized for 5 minutes.

       STATEMENT OF MS. DENISE ROLLINS, ACTING ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Rollins. Thank you very much, Mr. Chairman, and members 
of the subcommittee. It is great for me to be here today with 
my colleague, Assistant Secretary Russel.
    With your permission I would like to submit my written 
statement for the record.
    Mr. Chabot. Without objection, so ordered.
    Ms. Rollins. Thank you. In recent decades, the East Asia-
Pacific region has experienced an unprecedented period of 
prosperity that has lifted 845 million people out of extreme 
poverty and transformed the region into a key driver of global 
politics and economics.
    Home to some of our closest allies and strongest trade 
partners and one-third of the world's population, the region 
still faces complex development challenges that threaten to 
derail committed progress--continued progress.
    Our robust Fiscal Year 2015 request of $810 million enables 
USAID to continue laying the foundations for lasting progress 
in a part of the world vastly interconnected with ours.
    Across the East Asia-Pacific, USAID has eight field 
missions that provide support to 22 countries. Through the 
promotion of inclusive economic, political and societal 
progress that creates pathways out of poverty with the world's 
most vulnerable people, USAID's assistance expands stable free 
societies, creates markets and trade partners for the United 
States and fosters good will abroad.
    Our approach is fou fold.
    First, we are advancing regional cooperation to address 
cross border challenges in the areas of trade and investment, 
agriculture and food security, environment and water and 
health. For example, we are supporting the ASEAN in achieving 
economic integration by 2015, which will expand opportunities 
for American businesses with our fourth largest export market.
    Second, we are addressing regional development challenges 
through the three Presidential initiatives--global health, Feed 
the Future and climate change. An example is in Indonesia, 
which has one of the highest tuberculosis rates in the world. 
We have helped introduce a new technology that diagnoses drug-
resistant strains in hours as opposed to weeks which is 
enabling more people to start treatment sooner, critical to 
preventing transmission and saving lives.
    Third, we are leveraging science, technology, innovation 
and partnerships to achieve greater cost effectiveness and 
impact. For example, in Timor-Leste through a partnership with 
Conoco Phillips, we have doubled the number of farmers 
utilizing new horticulture techniques that have boosted incomes 
by up to 400 percent.
    And fourth, in Burma we are supporting important upcoming 
milestones such as the scheduled 2015 national election that 
presents opportunities to catalyze the country's transition to 
a peaceful democratic society and market-based economy. We are 
empowering civil society to engage with reform champions within 
the Government of Burma to deepen reforms and we are urging the 
Government of Burma to address violence and resolve 
humanitarian crisis in Rakhine State, which plays a key role in 
the country's transition.
    In the Philippines, an important development, trade and 
security partner, we continue to collaborate through the 
Partnership for Growth to address the country's most binding 
growth constraints. The Philippines has made great progress, 
advancing 35 places in Transparency International's corruption 
perception index. We continue to support peace in six conflict-
afflicted areas of Mindanao as well as the ongoing recovery in 
typhoon-affected areas.
    In Indonesia, the third largest democracy, USAID is moving 
beyond the traditional donor-recipient model to an equal 
partnership that leverages greater resources from Indonesia to 
address development challenges within and beyond its borders.
    In Vietnam, accelerating the country's transformation to a 
market-based economy is a U.S. priority. USAID is helping the 
Vietnamese Government develop legal and regulatory frameworks 
that meet global standards and trade commitments. We continue 
to support people living with HIV and AIDS while shifting our 
program to encourage the Government of Vietnam to take on more 
responsibility.
    And finally, in Cambodia, USAID programs align with U.S. 
foreign policy to support respect for human rights and more 
responsive governance. For example, we helped launch an 
elections hotline that received over 600,000 calls, 
contributing to an unprecedented level of civic engagement 
during the run-up to the 2013 elections.
    Mr. Chairman, stability and progress in East Asia and the 
Pacific matter far beyond the region. Continued USAID 
assistance is vital in order to sustain gains that contribute 
to increased security and prosperity in a region of the world 
closely tied to our own future.
    I appreciate the opportunity to testify today and look 
forward to your counsel and questions.
    [The prepared statement of Ms. Rollins follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Chabot. Thank you very much for your testimony. We 
appreciate both of you being here this afternoon and we will 
turn to our questioning now. I will start with myself.
    I will begin with Burma first. I am troubled by the fact 
that Burma seems to get rewarded by the administration whether 
or not it actually honors or meets its past promises and 
pledges. It now seems certain that Burma's constitution will 
not be amended before the 2015 elections, which means 
provisions that allow the military leadership to dominate a 
civilian government--that will remain--including the military's 
power to appoint 25 percent of the parliamentary seats, dismiss 
the Parliament at will, and in effect, choose the President. 
Moreover, a provision will remain that disqualifies Aung San 
Suu Kyi from running or serving as President. So my question 
is, how can the 2015 election possibly be a complete and 
accurate expression of the democratic will of the Burmese 
people?
    Also, the Secretary of State is traveling to Burma for 
ASEAN-related events this summer and President Obama is going 
there, I believe, in November. Will the administration express 
disappointment about this situation and how is the 
administration planning to ratchet up the pressure on the 
Burmese Government to follow through on their commitments to 
reform?
    What they have committed to is great. We think it is 
wonderful. But the follow through, I think, is lacking in many 
instances. Mr. Russel.
    Mr. Russel. Thank you very much, Mr. Chairman. This is an 
incredibly important question and the United States is firmly 
and deeply committed to helping to ensure the success of the 
important political and economic reforms in Burma.
    As you point out, Secretary Kerry will be traveling there 
this summer. President Obama is expected to go there in 
November, and the need for Burma to follow through across the 
board on its reform commitments, including the issue of 
building up a credible democratic process and democratic 
institutions, among other things, through elections in 2015 
that are considered to be fair and equitable, is at the top of 
the list of U.S. foreign policy objectives.
    These are issues that the Secretary and the President do 
and will raise. I myself was in Naypyidaw and had the 
opportunity to raise these and other issues, including the ones 
you mentioned in your opening statement, including the 
treatment of ethnic minorities, particularly the Muslim 
Rohingyas in the southwest directly with President Thein Sein.
    At the same time, I would note, Mr. Chairman, that Burma 
and the success of Burma's reform efforts has great 
geostrategic importance for the United States, given Burma's 
situation between two important countries, India and China.
    Mr. Chabot. Thank you. Let me move on to my next question--
Cambodia. I think you share the same concerns as many of us on 
the committee do about Cambodia's situation--the flawed 2013 
election, the crackdown on opposition and dissidents, 
widespread land grabbing and the basic fact that Hun Sen has 
been in power for almost 30 years now.
    Ambassador William Todd has spoken clearly about U.S. 
disappointments with the government and the political situation 
overall. What I want to ask you is, in the midst of all these 
concerns, why did the U.S. go ahead and carry out a joint 
military exercise and training session--Angkor Sentinel--with 
the Cambodian military including units like the military 
police, who have been engaged in the breakup of peaceful 
protests? And more worrying, why did the programing include 
training in what appears to be urban combat operations 
including storming buildings and stopping cars? It seems to me 
they have been effectively utilizing these methods to literally 
throw people out of their homes and off their land.
    The Pentagon is either evading the law or has found a 
loophole to allow military training outside of the restrictions 
imposed by the 2014 omnibus spending bill passed by Congress 
and signed by the President in January 2014. So if you could 
respond.
    Mr. Russel. Thank you, Mr. Chairman. Well, we have, as you 
noted, consistently and forcefully expressed our concerns about 
the 2013 election and both our Ambassador, myself and other 
officials meet with both parties including recently opposition 
party leaders in Washington to urge reconciliation.
    We were somewhat encouraged by the fact that regular 
dialogue takes place but not nearly satisfied. With respect to 
the exercise you are referring to, Angkor Sentinel, this is an 
annual exercise that is a key element in America's efforts to 
help build Cambodia's capacity to support international 
peacekeeping missions and to provide humanitarian assistance 
and disaster relief.
    We train, for example, the Cambodian military on the 
handling of IEDs, which are a persistent threat in 
peacekeeping. We also provide training that has allowed the 
Cambodian soldiers successfully to protect themselves and 
innocent civilians.
    We conduct this program fully in accordance with U.S. law 
and U.S. policy, including the Leahy amendment. We review 
carefully the practices of the units that may receive 
assistance and we do not provide assistance in cases where 
there is credible information that those units have committed 
violations of human rights.
    Mr. Chabot. Thank you. My time has expired. The gentleman 
from California, Mr. Bera, is recognized for 5 minutes.
    Mr. Bera. Thank you, Chairman Chabot, and thank the 
witnesses again for your opening testimonies.
    Secretary Russel, in your opening testimony you certainly 
touched on some of the increasing tensions in the South China 
Sea and, you know, these have been long-term territorial 
disputes that--you know, China has been provocative in the past 
but has never done something so bold as to actually move an oil 
rig and, you know, plop it down in these disputed territories.
    It really is escalating tensions and from everything that I 
have been briefed on and have read, China has made every 
indication that they do not plan on backing down here. My 
question to you, Secretary, is what do you think the best 
course of action is at this juncture for the United States and 
for our ASEAN partners to help de-escalate these tensions as 
opposed to the opposite, from the administration's perspective?
    Mr. Russel. Well, thank you very much for the question, 
Congressman. It is an important one. We believe strongly that 
the best course of action for the United States, for China's 
neighbors and for China is a constructive diplomatic dialogue 
to manage disputes and where possible to resolve them in ways 
that are consistent with international law.
    There are two recent developments of particular concern, 
one of which you mentioned, which was the troubling and 
unilateral decision by China to introduce an oil rig and 
accompanying vessels--paramilitary coast guard vessels in 
waters disputed with Vietnam, and that strikes observers as 
part of a broader destabilizing escalatory pattern of behavior 
in which China is advancing its claims through nondiplomatic 
and extralegal means.
    The second is, you may recall, that the Philippines have 
raised concerns about evidence that China is conducting large-
scale reclamation on reefs in the South China Sea which, in our 
view, as a significant upgrade or potentially the 
militarization of a disputed land feature also has the 
potential to raise tensions.
    We addressed these issues directly with the Chinese 
diplomatically. We have made no secret of our strong belief 
that China must use diplomacy, not brute force. We think the 
issue is not how strong is China.
    We think the issue is how strong is China's legal claim in 
the territorial disputes, and we also take no exception to 
China's right to make a claim or for that matter the potential 
validity of the claim. We do take exception to behavior that is 
coercive, intimidating and nondiplomatic.
    Mr. Bera. Well, and we would agree that what they are 
currently exhibiting is behavior that is coercive, 
nondiplomatic and so forth. So I think it is in our best 
interest as well as the interest of our friends both in the 
South China Sea, and with China exhibiting very similar moves 
in expanding the ADIZ in the East China Sea we may see this 
pattern occur once again around the Senkaku Islands and our 
friends in Japan as well as our friends in Korea and Taiwan.
    If we don't respond and if we don't get China to step back 
and act in a diplomatic fashion with international norms, I do 
fear that this pattern would repeat itself also with the 
disputed territorial waters with the Philippines as well.
    And, again, I think we have to send them a very strong 
message that this is not the way you operate in a modern world 
where you have international laws and international norms. What 
additional leverage do we have other than just our words?
    Mr. Russel. Well, Congressman, President Obama, through his 
recent visit to three U.S. treaty allies in north and southeast 
Asia and to an important partner, Malaysia, made very clear not 
only in word but in deed how committed the U.S. is to stability 
in the region and America's determination to stand by the 
principles of international law and rules and norms.
    At the same time that he affirmed very clearly our 
commitments to our allies and our determination to maintain 
regional security, he also made clear how important the U.S.-
China relationship is and how committed the administration is 
to promoting the peaceful rise of a stable China that is a net 
contributor to the well being and the prosperity of the region.
    In addition to our diplomatic channels, the--a program and 
the criticism that emerges from the international community in 
response to unilateral and assertive behavior has without a 
doubt an important effect on the calculations of the decision 
makers in Beijing, as well it should.
    It is not lost on the Chinese that the demand signal for 
U.S. presence--economic, political and military--has increased 
in proportion to the troubling behavior that has strained 
China's neighbors with--China's relationship with its 
neighbors.
    Mr. Bera. I think I could speak for all of us on this body 
and in this committee that we stand with our allies in sending 
a strong message that this type of behavior by China is 
unacceptable.
    Mr. Chabot. I would second that point of view. The 
gentleman from California, Mr. Rohrabacher, is recognized for 5 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
just say that I, of course, was hoping that this so-called 
pivot to Asia was going to result in a much more aggressive and 
realistic policy toward what I see is the major threat to 
America's security and the free world security and stability 
and well being.
    And what we have, from what I can see in terms of our 
response to these actually acts of violence and arrogant 
violence initiated by these--by trying to reinforce or enforce 
the claims over these island territories that we have seen in 
the last year, that our response basically has been to arrest 
five military computer hackers.
    That is a joke. Five military computer hackers. I am sure 
that the gang--the clique that runs China, the dictatorial and 
brutal and murderous clique that runs China, is very impressed 
with the courage that we have in arresting the five military 
computer hacks.
    China--the leadership of China, from what I have read, has 
been enriching itself dramatically, very much. How are they 
doing that? They are betraying their own people. They are 
accumulating--they are accumulating wealth.
    Let me just add as my--just ask my first question which is 
is there evidence that they--that members of the Chinese 
Communist leadership who have been enriching themselves--we 
know how wealthy they are--have been involved with the theft of 
American technology?
    Mr. Russel. Congressman, I am not aware of such activity 
but with your permission I will take your question back, 
consult with my colleagues and provide a written response. I 
would add, if I might, in reference to the arrest of--or excuse 
me, the indictment against members of the Chinese military for 
cyber theft, this reflects not a response to China's foreign 
policy activities.
    This reflects the strong commitment by President Obama in 
focusing on cyber security and cyber crime to address the 
challenge posed by Chinese Government-sponsored cyber-enabled 
theft of the trade secrets and sensitive business information--
--
    Mr. Rohrabacher. Well, I would say that he is sending the 
wrong message because arresting or indicting five military 
computer hackers is so--such a weak response. It will have the 
opposite reaction from dictators and brutal--the people who run 
China have betrayed their own people.
    They are enriching themselves. They brutally stamp out any 
opposition. There are no opposition parties there. They still 
kill people for believing in God, like the Falun Gong, who they 
throw into prison and then have murdered in order to--in order 
to take their organs and sell them.
    This is not a group of leaders of a country who would be 
impressed by the fact that five of their lower echelon have 
been indicted. Again, thank you for agreeing to at least look 
into that issue to see if the leadership of China are 
themselves enriching themselves.
    But let us just note, I would hope that a pivot toward--
back toward Asia means that we are pivoting back toward the 
people of Asia and not toward some sort of phony--a 
relationship that is phony but positive with people who rule 
the country like they do in Beijing.
    There are--let me see what else I wanted to bring up here 
to you--in terms of the Chinese, how much have the Chinese 
increased their military power in the last 10 years? What would 
you label it? Substantial or medium or what would you say?
    Mr. Russel. Well, Congressman, the U.S. still vastly 
outstrips China in terms of all indexes of military capability 
and, certainly, military spending. That said, China has 
embarked in--on active military modernization program that is 
troubling in the respect that it is opaque and we and our 
allies have called on China repeatedly to show more 
transparency in its military planning and programs.
    Now, as one step toward that transparency, when Secretary 
Hagel recently visited China he was taken to Qingdao and shown 
the new Chinese aircraft carrier. That is a small step in the 
right direction.
    Recently, Chairman Dempsey hosted a visit by the--his 
Chinese counterpart, General Fang, with whom I had an 
opportunity to discuss the issues both of cooperation with 
China such as North Korea and areas of deep concern with China, 
such as their behavior in the South China Sea.
    Mr. Rohrabacher. One last point and that is showing that 
aircraft carrier to our person is not a good sign. It is a sign 
of arrogance. It is a sign of take a look, we are becoming 
powerful.
    This is not something where oh, we are just showing how 
open we are. When you start trying to get into the mind set of 
a dictator you have to think more like--think of what that 
dictator is thinking, not what he would think if he was a 
democratically-elected government. Thank you very much.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The Chair would note for the record that even though the 
United States certainly has a much more powerful military than 
the People's Republic of China right now, the administration 
has recommended a pretty significant decrease in our military 
forces to levels that are pre-World War II and has been pushing 
for reducing our number of carriers from 11 to 10.
    That has apparently been put on the back burner for the 
time being. I think it would be a terrible move because U.S. 
power is projected around the world through our aircraft 
carriers and China has, by double digits, increased their 
military spending over the last 25 years. I think it is a 
particular concern.
    I would now like to recognize the gentleman from Virginia, 
Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. I guess I would note 
respectfully, appropo the chairman's remarks, and China does 
not have an element in its government that seems to know the 
cost of everything and value of almost nothing, wanting to 
shrink the size of government philosophically, wanting to slash 
investments and obsessed with the debt such that investments 
get starved.
    That is unique to our Government. Chinese aren't plagued 
with that. So no wonder they can proceed apace with a military 
budget that has few constraints. And I might also say when I 
was listening to my friend from California, Mr. Rohrabacher, I 
thought he was describing the Russian Government.
    But he is not here to respond to that so I will let it go. 
But let me ask you, Mr. Russel, I was heartened that the 
administration issued indictments on cyber theft--cyber 
security because, frankly, on a bipartisan basis for quite some 
time we have kind of winked and blinked at gross and fairly 
comprehensive and systematic Chinese intellectual property 
theft across the board, not just cyber issues but software, 
candy manufacturers, Starbucks coffee.
    You know, I have met with so many American companies and 
manufacturers who have intellectual property theft problems 
that are just blatant. They don't even hide it.
    So it is very heartening to have an administration to 
finally crack down and show some seriousness of intent. I 
assume from your remarks and from that indictment that is the 
beginning of a process, not the end of the process.
    Mr. Russel. Congressman, the fact of the matter is that it 
is not the beginning of a process. It is a step in a very well-
developed ongoing process that is led personally by President 
Obama.
    As a former staff member at the National Security Council, 
I had the experience of participating in many of his meetings 
with the Chinese. I accompanied the former national security 
advisor to China. I have been now several times in this 
capacity with Secretary Kerry.
    Our concerns about China's transfer of technology, China's 
economic theft and disrespect for intellectual property rights 
but particularly, although there has been progress in many of 
these areas, the area of concern that we consistently flag has 
been government-sponsored cyber-enabled theft of U.S. corporate 
information that is then transferred to Chinese companies or 
state-owned enterprises and used for commercial gain.
    Mr. Connolly. Yes.
    Mr. Russel. This is not hacking. This is not cyber warfare. 
This is cyber economic theft and we have laid down firm markers 
in our diplomatic channels and now the Department of Justice 
has taken action based on a a long-standing investigation.
    Mr. Connolly. Good. My time is rapidly--but I applaud the 
administration for doing it and I hope we do more of it. I want 
a robust vibrant relationship between China and the United 
States.
    I think it is vital for the world, as we move forward. We 
have to have a modus vivendi that works for both of us but that 
also means that we have to have rules of engagement and setting 
down some markers with respect to those rules is long overdue 
and I applaud President Obama and the administration for doing 
it.
    I have one other question, given the time. What--you know, 
we look at what seems to everybody in the region including us 
to be deliberately provocative action against Vietnam, against 
the Philippines with respect to certain islands in the Pacific, 
in the South China Sea.
    What is your sense of does Beijing ever stop and think 
about the risk of miscalculation, that with the best of 
intentions or not the best of intentions provocation leads to 
escalation, which leads to unanticipated consequences that 
weren't intended but can happen because things get out of hand? 
I worry about that and I know the United States Government 
worries about it but does Beijing worry about it?
    Mr. Russel. Well, it is daunting to be asked to speak for 
the Chinese and the Chinese leadership.
    Mr. Connolly. I was told you could.
    Mr. Russel. What I--what I can do, Congressman, is to 
attest to the fact that in my many conversations with Chinese 
officials and in the Secretary's conversations with Chinese 
officials this is precisely the point that we have raised.
    Specifically, we have urged China to cooperate with its 
neighbors and with its ASEAN claimant friends to front load the 
slow-moving code of conduct negotiations by coming to an early 
agreement on mechanisms to prevent conflict or to manage 
incidents when they occur on the seas and we have offered our 
good offices and our experience from the Cold War, frankly, in 
avoiding undesired incidents at sea and the like.
    At the same time, we have urged China not only to exercise 
the restraint that behooves a large, powerful and great country 
but also to make more rapid progress in its diplomatic 
negotiations.
    The United States, as you said, Congressman, very much 
wants a positive and constructive relationship with China. We 
also want China to have good relations with all its neighbors.
    Mr. Connolly. Thank you, Chair.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from Arizona, Mr. Salmon, who is the chairman of 
the Western Hemisphere Subcommittee, is recognized for 5 
minutes.
    Mr. Salmon. Thank, Mr. Chairman. Negotiation of the Trans-
Pacific Partnership, TPP, agreement remains the centerpiece of 
the administration's economic strategy in the region. What are 
the administration's priorities with TPP at this point and when 
does the administration hope to conclude talks on TPP 
negotiations?
    Mr. Russel. Congressman, I cannot give you a time line and 
I will defer to my friend and colleague, Ambassador Mike 
Froman, for greater specifics.
    But I had the honor of accompanying both President Obama 
and Ambassador Froman in the recent trip to Asia, to Japan as 
well as to Malaysia where the--where significant progress was 
made in the bilateral discussions of TPP, particularly with 
regard to market access.
    In Japan, we announced a pathway forward on these bilateral 
issues and similarly in Malaysia the leaders affirmed their 
commitment to a high standard agreement as soon as possible.
    I know that Ambassador Froman has just wrapped up a major 
ministerial TPP meeting in Vietnam where I believe they made 
considerable progress on market access. There is much more to 
be done including with Vietnam. In my recent trip to Vietnam, I 
reinforced the tremendous importance that the United States 
places on Vietnam making progress with regard to issues 
regarding labor unions and freedom of association.
    Mr. Salmon. Along those same lines, I know in the 
President's State of the Union Address this year he identified 
TPA as one of his top priorities and I believe that that is 
something that could be very easily accomplished in a vote here 
in the House but it is kind of dubious in the Senate right now.
    Does the administration intend to flex a little bit of 
muscle to get that done or are they just going to let it go?
    Mr. Russel. Congressman, I know from Secretary Kerry and I 
know from Ambassador Froman and from the President himself that 
TPA is a top priority for the administration because it is a 
key part of the overall economic and strategic agenda.
    Now, I also--I also recognize that TPA is not a requirement 
for USTR to negotiate and that is exactly what USTR is doing 
right now.
    Mr. Salmon. Finally, Mongolia's Prime Minister unveiled a 
stimulus bill dubbed the 100-day action plan that will seek to 
revive the mineral-rich nation's flagging economy.
    Prime Minister Norovyn's 50-point agenda promises to boost 
infrastructure, mining manufacturing and the development of 
small and medium-sized businesses. The bill still needs 
approval by Parliament and is part of a renewed drive to 
improve the economy after 2 years of slowing growth.
    At a recent briefing, the Prime Minister said within these 
100 days we believe we should reduce bureaucracy, increase 
mining, approve the reissue of exploration licenses and 
resolving a dispute over 106 cancelled mining licenses.
    Assistant Secretary Russel, what are your thoughts on this 
proposed 100-day action plan? Is it a viable plan and is the 
State Department engaging with the Mongolian administration on 
this plan?
    Mr. Russel. Well, Congressman, we are closely engaged with 
the Mongolian Government and with important U.S. energy 
companies and other stakeholders in discussing the development 
of--the responsible development of Mongolia's natural resources 
in the Talon Tolgoi mines and elsewhere.
    We believe that U.S. companies provide tremendous benefit 
not only in technical terms but also with regard to corporate 
social responsibility. With your permission, allow me to take 
back the specific question about the--about President 
Elbegdorj's new economic minerals initiative and provide a 
written answer for the record.
    Mr. Salmon. That would be very helpful. I yield back.
    Mr. Chabot. Thank you. The gentleman yields back.
    Let me follow up on the gentleman's point on TPP and TPA. 
During the President's recent trip to the region, enhancing 
trade and investment was on top of the agenda and negotiations 
for TPP were a key priority in the visits to Japan and 
Malaysia, in particular.
    Unfortunately, it doesn't seem as though much progress was 
made. The U.S.-Japan joint statement noted that a path forward 
on important bilateral issues was identified but that a lot of 
work is needed to conclude the TPP agreement.
    Mr. Abe wasn't willing to give way on sensitive areas for 
Japan and Malaysia, doesn't want to give up preferential 
treatment for the ethnic Malays and, you know, expanding trade 
and investment is one of the administration's top goals to 
support the rebalance strategy.
    So as Mr. Salmon mentioned, I think the President is going 
to have to really put forward considerable effort, maybe 
extraordinary effort when one considers that, you know, a 
significant member of my Democratic colleagues and a not 
significant minority of my Republican colleagues are opposed to 
it and I know the unions are quite opposed to it.
    So it is going to take some real effort, and I think the 
effort is worth it but I would just encourage the 
administration to do everything possible. I know it is an 
election year and it makes it all that much tougher. But I 
think it is important for our economy and certainly important 
for the economies of these other countries.
    We are both going to have to give a little, maybe give a 
lot in some instances, to accomplish this. So I would just urge 
you to take that message back to the administration and there 
are a lot of us willing to work with the administration on this 
one.
    You know, we argue and fight and bicker about some things 
but this is one--he has a lot of allies on the Hill on this.
    Mr. Russel. Well, Mr. Chairman, thank you very much for 
that encouragement and that advice. This is a priority for the 
President personally and for the administration. We are all 
hard at work at it and the reason that it--the reason that it 
looks difficult is because we are committed to a genuinely high 
standard trade agreement.
    Mr. Chabot. Good. Thank you very much.
    Let me turn to North Korea. Last month we held a hearing on 
the human rights situation in North Korea following the release 
of the U.N. Commission of Inquiry Report and I am sure you are 
well aware of the details of that report so I am not going to 
go into great detail about the crimes against humanity that are 
being committed against the people of North Korea by their own 
government.
    However, I do want to discuss the administration's 
strategic patience policy toward North Korea, which has not 
impaired Pyongyang's nuclear ambitions nor decreased the extent 
of human rights violations committed by the regime. Evidently, 
our sanctions regime is being thwarted and consequently is 
quite ineffective. During President Obama's recent visit to 
South Korea, he suggested it might be an opportune time to have 
tougher sanctions. This committee's chairman, Mr. Royce, has 
introduced legislation to do just that, which many of us here 
support on both sides of the aisle.
    I was wondering if you could clarify President Obama's 
comments regarding sanctions against North Korea and whether 
the administration will stand behind our efforts to hold the 
North Korean regime accountable by imposing the needed 
sanctions to cut off Pyongyang's currency supply, for example, 
and halt its nuclear ambitions.
    Mr. Russel. Well, thank you, Mr. Chairman. There is no 
question but the administration is committed to hold North 
Korea responsible for its threatening and troubling behavior.
    The U.S., you know, both under Democratic and Republican 
administrations, has combined the imposition of sanctions and I 
would add that the sanctions imposed in the last 5 years under 
the Obama administration are by far the most rigorous in 
history, but combine that also with an open hand to an offer to 
Pyongyang to improve its relationship with the United States, 
predicated on behavior.
    And we have simply not see from North Korea behavior that 
offers a pathway to a negotiated settlement and for that reason 
and because we are not falling for old tricks or accepting 
North Korean IOUs we have maintained a increasingly firm line 
in close cooperation with our key allies, Korea and Japan, but 
importantly made cooperation with China on North Korea a key 
component of our bilateral relationship with Beijing.
    Cooperation by China will be essential to any effort to 
strengthen the existing sanctions regime. The DPRK is one of 
the most heavily sanctioned countries on planet Earth and we 
have imposed two very significant U.N. Security Council 
resolutions in the last 5 years as well as using a number of 
domestic authorities.
    So I can't speak to the draft legislation itself but we, on 
an ongoing basis in the U.S. interagency, consult and consider 
on a wide range of additional measures that the administration 
can take as well as working hard with partners to get enhanced 
implementation of the existing sanctions.
    Mr. Chabot. Okay. Thank you. I would also like to mention 
we appreciate you and your folks' cooperation and assistance as 
we travelled to the PRC and to Mongolia last week. Your people 
over there are top flight and we certainly appreciate what a 
good job they are doing for our country. So thank you very 
much.
    Mr. Russel. Well, I appreciate those words. I will pass 
them on and thank you, Mr. Chairman, for taking the time and 
trouble to visit. It, clearly, was very useful in terms of 
foreign policy and in the case of the Mongolian Government I 
can attest to their appreciation of your visit.
    Mr. Chabot. Good. Just for the record, so maybe people know 
we are not trying to make messes that you are going to have to 
clean up after we leave. We generally will talk to the Embassy 
personnel and your folks for the best questions and topics for 
us to bring up with the governments there because we want them 
to know that your policies are reflective of not just the 
executive branch, but the legislative branch as well. We want 
to help in your efforts over there, so thank you very much.
    Mr. Russel. We appreciate and welcome your efforts.
    Mr. Chabot. Thank you. The gentleman from California is 
recognized for 5 minutes.
    Mr. Bera. Great. I thought we might shift to Thailand. 
Obviously, we are watching a rapidly evolving situation in 
Thailand and from your perspective, Assistant Secretary Russel, 
is there anything that you can enlighten us on in terms of what 
do you think the next steps are?
    Mr. Russel. Well, thank you, Congressman. The challenges in 
Thailand occupy my time and attention and that of Secretary 
Kerry and other senior officials both because Thailand is our 
oldest and one of our most important partners and allies in 
Southeast Asia.
    But also because we are deeply concerned and troubled at 
the political crisis in an important democracy in Asia. 
Yesterday, as I am sure you are aware, the Royal Thai Army 
declared martial law.
    The army has indicated that this is not a coup, that this 
is temporary imposition of martial law to prevent the growing 
threat of bloodshed and violence, that it will be in place for 
a finite period of time, and we have called on Thai's military 
in a strong statement issued at Secretary Kerry's request 
yesterday to exercise full regard both for the democratic 
process and democratic institutions but also for important 
freedoms including freedom of speech, freedom of the press.
    We want to see the early restitution of full democracy in 
Thailand and our respect for Thailand's democratic institutions 
and we think that requires free and fair elections that enable 
the Thai people freely to express their political will.
    Mr. Bera. Great. Thank you. And it is incredibly important 
to us, as you already mentioned. Thailand is one of our oldest 
geopolitical allies in the region. Talking about democratic 
elections and so forth, in that region in South Asia and India 
we just saw a remarkable showing of democracy in action with 
the recent elections, you know, with I think over 500 million 
folks casting ballots and, you know, I think there--you know, 
first off, I would like to take a chance to congratulate the 
new Prime Minister, Narendra Modi, and welcome, I think, this 
body's and the administration's call to renew this partnership 
in India as well, as we suggested a few weeks ago, in helping 
stabilize not just being a foundation for South Asia but 
certainly being a foundation with its partners in Burma and the 
surrounding countries.
    And, you know, we look forward to working with India to 
address and resolve some of the territorial issues in the South 
China Sea and India's continuing emerging role as a major 
player in the world.
    So we look forward to working with Prime Minister Modi as 
we address these issues in a regional manner and, as you have 
already mentioned, using international norms and international 
laws to address these and India certainly has a role. I might 
ask your perspective.
    Mr. Russel. Thank you, Congressman. In the Department of 
State, given our taxonomy, I am not directly responsible for 
India and South Asia west of Burma. However, I co-chair a 
regular U.S.-India dialogue on the Asia-Pacific region and just 
last month held those meetings.
    I also participate with my Indian counterpart in the 
preparatory meetings for the larger ASEAN Plus meetings 
including the East Asian Summit and I respect and hope for 
increase in active Indian engagement in East Asia precisely for 
the reasons that you have mentioned.
    Mr. Bera. Thank you, and I will yield back.
    Mr. Chabot. Thank you. The gentleman yields back. The 
gentleman from California, Mr. Sherman, who is the ranking 
member of the Terrorism, Nonproliferation and Trade.
    Mr. Sherman. Which subcommittee is meeting now, hence an 
excuse not to be here for the entire hearing, and I can testify 
to the chairman's effectiveness on his travels to Asia, having 
been with him on the trip before his trip that included 
Mongolia.
    China has been manipulating its currency for many years. 
Our response is to whine and complain, and then when some ask 
that we do more I am told that well, they used to be taking 2 
million jobs away from us through wrongful behavior.
    Now it is down to 1.8 million so we have a great policy 
success. Now we discover that--we discover--we document that 
they have been hacking us for years. We found a new way to 
whine and complain.
    We indict people who will never be here and who will never 
be extradited and thus our response to their hacking is to 
deprive a few military officers of an opportunity to visit 
Disneyland.
    The powers that be in Washington don't want us to do any 
more but obviously if we designated China a currency 
manipulator that would get their attention. Depriving a few 
military officers of a chance to visit Disneyland will not 
change Chinese behavior.
    The discussion of pivoting toward Asia is not just trade 
missions to Japan and teaching Mandarin in our schools. It is a 
refocus chiefly of our military and it is not surprising 
because we tried to meet the institutional needs of our large 
Washington institutions rather than the practical needs of the 
American people.
    Since the 1890s, every time our military has confronted a 
nonuniformed enemy it has been a frustrating and terrible 
experience, and since the 1890s every time we have faced a 
uniformed military it has been a tremendous success, the most 
tremendous success of all being winning the Cold War without 
having to fight a major war.
    So needless to say, we meet the institutional needs of our 
foreign policy establishment by abandoning the war against 
Islamist extremism, which is frustrating and long, and 
refocusing against a uniformed enemy, the Chinese, and we can 
confront them over a few specks by glorifying them and calling 
them islands and as true throughout human history dividing 
ourselves up into groups, finding something to fight about and 
then declaring that these few uninhabited islands--islands so 
useless that off the coast of a teeming continent no one has 
ever chose to live there--should be the focus of our military 
deployments.
    So we are going to pivot toward Asia because we are done 
with the Middle East and North Africa. I think that is absurd. 
We aren't done. We have got a lot to do.
    The protection of the United States from 9/11 attacks is 
probably more important than who controls islands which, up 
until this point in human history, have had absolutely no use 
whatsoever, and calling them islands is a wild exaggeration. We 
are talking rocks that barely protrude out of the ocean.
    Now, as to this Trans-Pacific Partnership, if we negotiate 
with the same format that we used for the South Korean 
agreement, then goods that are 65, 75 percent made in China, 
then finished in Vietnam or Japan, will be able to enter the 
United States.
    And that is if they admit that they are 75 percent made in 
China--if the importer admits that they are 75 percent made in 
China--they may well be 90 percent made in China--who would 
prove the difference.
    What are we going to do, Mr. Russel, to make sure that this 
is not a boon to Chinese imports in the United States, knowing 
that nothing in TPP will get a single paper clip from the 
United States into China?
    Mr. Russel. You covered a lot of ground there. Let me 
mention two things before I address your TPP question.
    Mr. Sherman. I have limited--why don't you address the 
question first?
    Mr. Russel. Well, the TPP negotiations are among 12 
countries not including China that are seeking to institute 
very high standards to get----
    Mr. Sherman. The question was specifically about rules of 
origin, goods that are 65, 75, 80, 90 percent made in China, 
then finished in one or more countries and brought into the 
United States.
    What is in there that stops that other than vague rhetoric 
about how it is wonderful to have high standards?
    Mr. Russel. Congressman, in the interest of preserving the 
limited time, let me take that question and get back to you. 
But first say----
    Mr. Sherman. Sir, you have got--you got to understand I 
have the limited time. I have yielded to you to answer the 
question that I have posed rather than to comment on something 
else you want to comment on.
    Mr. Russel. Fine. I will provide you, Congressman, with a 
well-considered written reply.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Sherman. Thank you.
    Mr. Chabot. Thank you very much. All time has expired and 
we want to thank the panel for their testimony here this 
afternoon. We thank those for attending.
    Members will have 5 days to supplement their statements or 
ask questions. If there is no further business to come before 
the committee we are adjourned.
    Thank you.
    [Whereupon, at 3:24 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                  Material Submitted for the Record


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]




</pre></body></html>
